<html>
<title> - A THIRD WAY: ALTERNATIVES FOR IRAQ'S FUTURE (PART 4 OF 4)</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-82]
 
       A THIRD WAY: ALTERNATIVES FOR IRAQ'S FUTURE (PART 4 OF 4)

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                             JULY 31, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  
                     U.S. GOVERNMENT PRINTING OFFICE
38-759 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
               Suzanne McKenna, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Sasha Rogers, Research Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, July 31, 2007, A Third Way: Alternatives for Iraq's 
  Future (Part 4 of 4)...........................................     1

Appendix:

Tuesday, July 31, 2007...........................................    37
                              ----------                              

                         TUESDAY, JULY 31, 2007
       A THIRD WAY: ALTERNATIVES FOR IRAQ'S FUTURE (PART 4 OF 4)
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Benjamin, Daniel, Director, Foreign Policy Studies, Senior 
  Fellow, The Brookings Institution..............................    14
Keane, Gen. Jack, (Ret.), Former Vice Chief of Staff of the Army, 
  U.S. Army......................................................     3
McCaffrey, Gen. Barry R., U.S. Army (Ret.), Adjunct Professor of 
  International Relations, United States Military Academy........     9
Newbold, Lt. Gen. Gregory S., (Ret.), Former Director of 
  Operations (J-3) for the Joint Chiefs of Staff, U.S. Marine 
  Corps..........................................................     6
O'Hanlon, Dr. Michael E., Senior Fellow, Foreign Policy Studies, 
  The Brookings Institution......................................    11

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    43
    Benjamin, Daniel.............................................   102
    McCaffrey, Gen. Barry R., (Ret.).............................    46
    Newbold, Lt. Gen. Gregory S., (Ret.).........................    52
    O'Hanlon, Dr. Michael E., joint with Edward P. Joseph........    57
    Snyder, Hon. Vic.............................................    41

Documents Submitted for the Record:
    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:
    [There were no Questions submitted.]
       A THIRD WAY: ALTERNATIVES FOR IRAQ'S FUTURE (PART 4 OF 4)

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                            Washington, DC, Tuesday, July 31, 2007.
    The subcommittee met, pursuant to call, at 1:05 p.m. in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order. Good afternoon. 
Welcome to the Subcommittee on Oversight and Investigations in 
the House Armed Services Committee. This is our fourth hearing 
on looking at alternatives and different strategies for Iraq.
    My colleague, Mr. Akin and I entered into this series of 
hearings because we were frustrated by the tone of the 
discussion about Iraq this year and the polarization that has 
occurred. The political debate on our strategy in Iraq has too 
often been framed by whatis characterized as two extreme 
positions, precipitous withdrawal or stay the course 
indefinitely. And these hearings have been an attempt to bring 
in some smart, experienced people--I am not referring to the 
committee members, but referring to the witnesses--smart, 
experienced people that can help us identify and develop 
potentially alternative approaches for Iraq. But most 
importantly is to educate the committee. Our intent is much 
less to look at critiquing what has happened in the past, but 
to focus on the future.
    Over the last three weeks, we have heard from retired 
senior military officers, defense policy experts and academics 
who specialize in Middle Eastern affairs. We have had the 
Honorable Bing West, Major General Paul Eaton, Colonel Paul 
Hughes, Dr. Steven Biddle last week. The full committee has 
also been holding hearings on trends and recent security 
developments in Iraq and the implications of the recent NIE 
with respect to al Qaeda, and we expect those kind of hearings 
to continue when we come back from the August recess.
    Each witness today was selected because of his unique 
background and perspective. The written testimonies will be 
made a part of the record. I hope that we will have some 
vigorous discussion today not just between us and the committee 
members, but you should feel free to have that kind of, you 
know, intellectual discussion amongst yourselves. And we have 
been pleased over the last few weeks of how that has occurred.
    For today's hearing we have another distinguished panel, 
including Retired General Jack Keane, who has been actively 
involved in advising the White House and the civilian and 
military leadership at the Pentagon and in the field, and who 
appeared before the full committee just last Friday; Retired 
General Barry McCaffrey, who has been traveling to and 
reporting on Iraq in his capacity as an adjunct professor at 
West Point for several years now, and was a cliffhanger because 
he had jury duty this morning, but we wanted him, and he wanted 
to be here, and that worked out fine; Retired Lieutenant 
General Greg Newbold, former Director of Operations for the 
Joint Chiefs of Staff; Dr. Michael O'Hanlon of the Brookings 
Institution, who just returned from eight days in Iraq, and 
recently had a publication in one of the major papers; and Mr. 
Daniel Benjamin of the Brookings Institution, whose scholarship 
in the field of counterterrorism can give us important insights 
in considering the future of Iraq.
    Welcome to all of you.
    I also wanted to acknowledge the presence of Mr. Saxton, 
and by unanimous consent he will be allowed to participate in 
this hearing today, along with the other Members.
    And I will now turn to Ranking Member Mr. Akin from 
Missouri.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 41.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman. And I wanted to likewise 
thank the witnesses for joining us, and welcome you all here.
    I won't repeat what the Chairman has said, but the whole 
purpose of running a good number of hearings now week after 
week, and hearing from a quite a number of various witnesses, 
has been to say, well, what are the different alternatives? And 
are there specific alternatives different than what we are 
currently doing? And after reviewing our witnesses' 
testimonies, it is clear that some advocate departing from the 
current strategy; that is, you do not endorse a planning or a 
plan that emphasizes U.S. combat forces going door to door, 
performing a counterinsurgency mission aimed at securing and 
holding Iraq neighborhoods.
    In light of the increasing reports that the surge is 
succeeding, I would like our witnesses to comment on how we in 
the Congress should view these developments. And particularly, 
Mr. O'Hanlon, I am interested in understanding how the 
significant changes taking place in Iraq that you described in 
your New York article affects your proposal for a soft 
partition. Particularly I want to get into the logic of what is 
a soft partition.
    Those who advocate departing from the current strategy 
emphasize the need for improving the readiness of the Army and 
Marine Corps. General McCaffrey's testimony is heavily focused 
on this issue. While I think all Members agree this is an 
important issue and a vital priority, I am curious how your 
alternative will allow U.S. Troops to carry out the following 
military roles and missions: one, training Iraqi forces; two, 
deterring conventional militaries from intervening in Iraq; 
three, supporting al Qaeda's enemies; and, four, conducting 
direct strike missions.
    Almost all of the experts who have testified before this 
subcommittee on this subject agree that continuing with these 
roles and missions in Iraq is important.
    Finally, according to previous witnesses, and there have 
been many, increased violence, humanitarian tragedy, a failed 
state, emboldened terrorists, and regional actors will all 
result in the wake of the withdrawal or significant drawdown of 
American forces. I would like to know how our witnesses will 
ensure that their plan will not make the situation worse. For 
those concerned about readiness, how will we ensure that 
subsequent to withdrawal the U.S. will not find itself in a 
situation where U.S. forces will have to return to Iraq in five 
or ten years?
    I would also appreciate if you would take some time this 
afternoon to discuss how the U.S. should manage the 
consequences of withdrawal.
    Thank you all for joining us and for giving us a chance to 
chat today.
    Dr. Snyder. Thank you, Mr. Akin.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 43.]
    Dr. Snyder. Mr. Akin laid down an agenda there, and I 
wanted to discuss the five-minute rule and our limitations on 
time. We will begin today with General Keane, who will at some 
point stand up somewhere between 2:15 and 2:30 because he has 
to leave, and we really appreciate him being here despite that 
constraint. We will put on our little clock that will turn red 
at the end of five minutes. If you have more to say, you say 
it. It is more just to give you an idea of where you all are 
at. When it comes to our turns, we will try pretty strictly to 
follow the five-minute rule. And so because of the number of 
you, when we ask a question, we want to hear a response from 
everyone. If everyone takes five minutes, we will be here for a 
half an hour per questioner, which won't work.
    So let us begin today with General Keane, and then we will 
just start it and go down the other ways.
    General Keane.

  STATEMENT OF GEN. JACK KEANE, (RET.), FORMER VICE CHIEF OF 
                  STAFF OF THE ARMY, U.S. ARMY

    General Keane. Mr. Chairman, Congressman Snyder, Mr. Akin, 
fellow members of the subcommittee, thank you for the 
invitation to provide some testimony to you today. And I will 
make, I guess, a five-minute opening statement.
    I welcome the opportunity to discuss the way ahead in Iraq. 
As we all know, it is a tough, complex problem, and truly must 
be approached as a regional issue with global implications. I 
understand the frustrations of Congress, as I said last week 
before the full committee, because I have been there myself, 
because we struggled and failed for three-plus years with our 
strategy in Iraq.
    The President made a tough decision to change the strategy 
to conduct a counteroffensive. That operation began in 
February, and it is now in full stride with the arrival of our 
last forces in June. As I said before, this counteroffensive 
from its inception is temporary. It is not designed to keep 
those force levels indefinitely. The time frame, generally 
speaking, is 12 to 18 months, with the intent to stabilize 
Baghdad, create the conditions to permit movement toward 
reconciliation, and buy time for the growth and development of 
the Iraqi Security Forces (ISF).
    Based on my own observations, I want to share some facts 
with you and repeat some of those that I mentioned the last 
time, and I will do that very briefly. One is we have seized 
the initiative. We are on the offensive, and we have momentum 
over what we had in 2006, which was the opposite. Security has 
definitely improved. Michael O'Hanlon's article lays that out. 
And clearly sectarian violence is down, June being a one-year 
low. Suicide car bombings are down. And most importantly, down 
on the street, which I visited twice in the last few months, 
schools are open; markets are teeming with people, most are 
operating at full capacity; and the cafes, pool halls, and 
coffee houses are crowded. And most importantly, people believe 
things are improving.
    The grass-roots movement among the Sunni, number three, is 
fundamentally a political movement in rejecting the al Qaeda, 
and their willingness to fight the al Qaeda, and also move 
toward reconciliation with the Shia government. This is a huge 
turnaround, with very significant ramifications. And people in 
Washington, I think, are just beginning to understand the 
magnitude of what this is. And I think it surprised all of us 
to the extent and the speed at which it is moving. But it 
should be instructive to us when local leaders decide to change 
because their people are pressuring them to change, how quickly 
that situation can dramatically change. And that is to the 
speed of it.
    The al Qaeda, in my judgment, are being defeated in Iraq in 
2007. And when we look back at it from 2009, I think we will 
see that. Their strategy to use suicide bombers exclusively 
against the Shia population has failed to provoke the Shia 
militia, as they had done so successfully in 2006. They lost 
two key sanctuaries in Diyala and Anbar provinces, and they are 
on the defensive, while we attack them simultaneously in every 
province that they have a presence, something we have never 
done before. The Shia militia, while still killing U.S. troops, 
are fragmented, with many of their special group leaders either 
dead or captured. Sadr has fled Iraq to Iran, frustrated and 
depressed, in terms of our intel sources, by the changing 
events in Iraq.
    Economic progress, we have some, albeit not what it should 
be, but there are essential services, microloans, and opening 
of state factories beginning to take hold. Much, much more has 
to be done.
    On the political side, no major piece of landmark 
legislation has been approved, and it is a disappointment, make 
no mistake about it. But the conditions are in place, and they 
are going to be strengthened, to achieve political 
reconciliation as we move down the road. It remains to be seen 
whether this government is up to that task.
    So where do we go from here? In my judgment, we have to 
continue the plan that the President announced in December to 
grow the Army and the Marine Corps.
    Number two, we must continue to cement the security gains 
that have been achieved in Iraq. The counteroffensive must 
continue, in my view, at least until the spring of 2008 before 
we begin to return to presurge force levels during 2008. That 
is about a 30- to 35,000 force reduction. During 2008, the 
trends will continue, violence down, suicide car bombs down, 
U.S. and Iraqi Forces casualties will continue to come down, 
and people will be more secure. More Sunnis will move toward 
reconciliation and further isolation of the al Qaeda. In my 
view, we will see some central government reconciliation. If we 
do not, and it is not achievable until the new elections in 
2009 with a prospective new coalition, then we will continue to 
reduce our forces anyway, probably in a more deliberate, 
methodical manner, because we will be doing it under fire.
    We need to develop a long-term security relationship with 
Iraq, which should be solidified in 2008, which contains the 
following: one, a recognition that Iraq is defenseless against 
its neighbors, and does not have a military organized, trained, 
and equipped for external defense.
    Two, from 2008 through 2009, continue to increase the size 
of the Iraqi Security Forces from the 360,000, 390,000 by the 
end of this year, to 625,000 topped out by 2009. And the 
mission remains the same: internal defense. Most important, we 
have to properly equip this force, and it is not properly 
equipped.
    Number three, continue to expand the quality and quantity 
of the U.S. advisory program to meet this need.
    And number four, from 2010 plus, assuming internal defense 
is no longer a military issue, begin to transition the Iraqi 
military from internal defense to external defense. Enter into 
the Status of Force Agreements (SOFA), with the Iraqis, which 
will permit stationing of troops for advisory purposes and 
force protection in Iraq.
    The timeline, as I see it, for this reduction, in summary, 
is 2008, down to the presurge levels and possibly beyond will 
hold Baghdad and the belt around it, and then reduce from out 
to the inside; establish long-range security arrangement with 
the Iraqis.
    2009, continue force reduction and transition to the ISF. 
Based on ISF capability and security, we will go down below 
100,000 for sure, close bases as required. We may as well be 
able to reduce from the four star command to the three star 
command, but that will remain to be seen.
    2010, bring the force down to advisory only, with the 
appropriate force protection. Transition the Special Operation 
Force role to the Iraqi Security Force role, and for sure if we 
haven't reduced the headquarters in 2009, then take it down in 
2010.
    And then from 2010 on, transition to external defense 
forces, while operating a minimum of two or three bases, 
whatever the command feels is necessary to do that mission.
    In conclusion, as we have always believed, if the 
counteroffensive works, you can reduce forces more rapidly 
because the level of violence goes down significantly, 
particularly after Sunni reconciliation. If it doesn't work, 
the force reduction should be slower, because you are 
withdrawing an Army under fire, and it must be done much more 
methodically and deliberately, but nonetheless must be done.
    Complementary to military force should be our diplomatic 
effort in the region, which has been from the outset less than 
satisfactory. And we must take advantage of the mutual 
interests that the countries have in the region in Iraq not 
being a failed state, regardless of the historic differences. 
It is good to see the Administration taking this on at Sharm el 
Sheikh as we meet here today. Thank you for letting me provide 
some comments.
    Dr. Snyder. Thank you, General Keane, for being here again 
this week.
    General Newbold.

   STATEMENT OF LT. GEN. GREGORY S. NEWBOLD, (RET.), FORMER 
  DIRECTOR OF OPERATIONS (J-3) FOR THE JOINT CHIEFS OF STAFF, 
                       U.S. MARINE CORPS

    General Newbold. Thank you, sir. What I would like to do is 
summarize my written testimony in as brief words as possible so 
we can focus on the questions, and hopefully some constructive 
answers.
    In summary, I made my opposition to the war known when I 
was in uniform and since I have been out, but I must strongly 
say that it is my view that the Nation, having committed to 
war, it also ought to commit to winning it. My first preference 
is that the Nation do all things necessary to win, because the 
consequences of a forced withdrawal will be paid by future 
generations of Americans, and I think that would be tragic. And 
that unsettled nature of the region is a fact, I think, that is 
known to all.
    Now having said that, I must say next that I think that 
there are eight ingredients to waging this successfully, and I 
will provide some criticism of them. The first thing we need is 
a coherent and sophisticated strategy, and so far we have not 
had one. I am not speaking of the surge, which I support, but 
what I am speaking of is a national strategy. We have been 
playing checkers while our enemy has been playing chess, and it 
is time to change that.
    But we also need a militarily effective campaign in the 
country. We have had that. The military has performed, I think, 
profoundly well, and our young people have sacrificed 
enormously. They want to stay in the fight, and they would like 
to see us win it. But the corollary to that is what is done by 
the other elements of our national power, and, frankly, they 
have not been up to the bargain. We are occupying a nation of 
25 million Muslims that has 40 percent unemployment, and we are 
surprised that it is in a state of unrest. We need, and frankly 
in a panel like this we ought to have, economists; we ought to 
have people of the political persuasion to talk about creating 
a viable government in Iraq, et cetera. But we have gone four 
and a half years without a viable political solution in Iraq, 
and I think that is tragic.
    On the economic front, the unemployment, the fact that the 
utilities have not been brought up to prewar levels, that the 
pipeline is still subject to attack, I think it should be no 
wonder to us that there is an insurgency going on.
    On the diplomatic level, the country is not isolated. The 
insurgency continues to be fed by neighbors, and there are 
larger issues than Iraq that need to be addressed by diplomacy. 
We are starting to see some initiative, but four and a half 
years into a war is five years is too late.
    Beyond those elements, I would say that the support of 
Congress is essential to prosecution of the war. And the fact 
is the momentum is very strongly moving against that, and it is 
likely to be exacerbated by upcoming elections.
    And finally, I want to spend a moment on the Iraqis. The 
United States cannot impose stability and a political solution 
on Iraq. It can help to do that, but the Iraqis must take the 
lead themselves. While there have been some heroic instances of 
sacrifice by individual Iraqis or by groups of Iraqis, the fact 
is that it is still driven apart rather than driven together. 
And the factions have not seen enough way to forming a nation 
than they have to looking out for sectarian interests.
    I would note one thing. Since the modern State of Iraq 
existed since largely about 1934, Iraq has had mandatory 
conscription until now. The greatest crisis in the history of 
the modern State of Iraq, and they have not seen fit to bring 
young people out of their neighborhoods, away from their 
sectarian mullahs, into a national entity, which would help the 
unemployment, which would guard their economy, which might even 
be a civilian conservation corps. But national service for a 
nation, that would indicate to me a commitment on the part of 
the Iraqis. It would indicate to me a commitment on the part of 
the Iraqis if they were willing to solve the oil problem, a 
division of the oil.
    But as I said in the beginning, we cannot impose stability 
and a settlement on the Iraqis. They have to be willing to do 
it. And I think they need an impetus stronger than they have 
received so far.
    My view is that the Nation, the U.S., is tired, that our 
people have grown exhausted by the war and by the debate over 
the war. They are tired of shouldering a burden largely with 
the British, and they wonder when it will ever end. The 
political nature of the debate in the United States has become 
more divided and divisive. The military is strained and 
stressed in ways that probably can't sustain this surge level 
beyond next February or March, and they deserve everything we 
can give to them. And I think the Iraqis need the impetus I 
have talked about before.
    One caution before I make my recommendation. For those that 
would recommend a quick withdrawal, I think they also ought to 
sign on for the consequences. And the consequences are obvious. 
If we do not want local genocides and a civil war, then we 
shouldn't argue for a quick withdrawal. If we don't want a 
destabilized region, we shouldn't argue for quick withdrawal. 
If we don't believe that the free flow of oil is critical to 
the world's economy, then we ought to pay attention to the 
follow-on forces that will be required. If we don't want an 
unstable region and an Iraq that may foment terrorism, then we 
ought to be able to commit the resources in support of the 
assets of the United States that are necessary to quell that.
    Now, my view. My view is we need a more modest set of goals 
than we have had as part of our national strategy. Setting new 
benchmarks and then achieving them would go a long way to being 
able to claim that we achieved what we wanted in Iraq.
    I also think that the U.S. and our allies have paid a very 
dear price for what we have done not only in the young lives of 
Americans and how much we have committed of our national 
coffers. It is time for us to at least call for other nationals 
to be held accountable, those that pledged so much money at the 
beginning of the war and have yet to ante it up. The U.N. has 
been, in the Army term, absent without leave for years, and it 
is time to hold them accountable.
    I think the U.S. has to pledge that whenever the withdrawal 
is completed, that we will not tolerate Iraq being a basis for 
terrorism. And I think we ought to also combine with the other 
nations of the region and the world to indicate that the 
world's economy depends on oil, and that that coalition of 
nations will ensure that it happens.
    I think we ought to also commit publicly to the world that 
whenever the withdrawal takes, it ought to not signal a lack of 
U.S. resolve; that the U.S. is committed to our national 
security, to regional security, and the world's security, to 
play a role of leadership, and we intend to do that now and 
into the future.
    I think we need to indicate a timeline for the withdrawal 
of forces. I am a strong minority opinion in that regard. I 
would not indicate an end date, but I would indicate a start 
date. And I would indicate that as the beginning of next 
spring. I would preserve the flexibility of our commanders and 
the flexibility of our national strategy in determining the 
speed of that withdrawal. And frankly, I would make it a point 
of leverage on the Iraqis for standing up their own capability.
    And finally, I recommend that the U.S. Congress craft 
legislation similar to Goldwater-Nichols, that would create an 
interagency process that is a parallel to what has been done 
for the U.S. military. It is long past due time to have an 
efficient, interagency national security process with all the 
incentives and disincentives that made Goldwater-Nichols 
effective.
    The only reason I agreed to appear before this subcommittee 
is this subcommittee has a reputation for bipartisanship and 
sincerity in approaching this issue. It is, as General Keane 
said, an impossibly complex, nearly theological problem. And 
not only do I applaud what the subcommittee is trying to do, 
but I urge them to be as active as they can in trying to reach 
out and gain a center of our national opinion so that we can 
move forward on this.
    That is my comments, Mr. Chairman.
    Dr. Snyder. Thank you, General. We appreciate your 
thoughtful comments. My wife's a minister. She likes 
theological problems.
    [The prepared statement of General Newbold can be found in 
the Appendix on page 52.]
    Dr. Snyder. General McCaffrey, we understand you are here 
today because some attorney downtown decided that the former 
drug czar was not the best person to have on a jury on a drug 
possession charge, and they dismissed you from the pool. 
General McCaffrey.

STATEMENT OF GEN. BARRY R. MCCAFFREY, U.S. ARMY (RET.), ADJUNCT 
 PROFESSOR OF INTERNATIONAL RELATIONS, UNITED STATES MILITARY 
                            ACADEMY

    General McCaffrey. No comment on that case.
    Let me thank the committee for the opportunity to appear 
before you. I am very proud to be associated with the people on 
the panel. I have known them all for years. Michael O'Hanlon is 
one the most objective, astute observers of the situation in 
Iraq that I follow. I certainly would associate myself with 
General Newbold's comments. That was right down the line, to be 
blunt, of what I believe.
    Let me add some viewpoints. In my written testimony I spend 
a good bit of the time talking about resourcing the military to 
carry out the national security strategy we have chosen, or 
alternatives in the coming years. Let me turn directly and 
solely to Iraq.
    A couple thoughts. First of all, we are in there. We have 
got 160,000 troops involved. We have had 32,000 killed and 
wounded. We are spending $12 billion a month. Oil is at stake. 
Our allies' safety and security, the Saudis, the Kuwaitis, the 
Gulf Coast States, the Jordanians, there is a lot at stake. And 
I could not agree more that the consequences of failure will be 
monumental to the American people for the coming 10 years or 
more. So we shouldn't be unmindful of that. And certainly one 
option I would immediately take off the table, we do not, in my 
view, in a responsible way have the option to walk away from 
the table. As General Colin Powell said, if you break it, you 
own it.
    I also think the whole notion of bringing David Petraeus, 
who, I might add, probably is the most talented person I ever 
met in my life, but bringing him home in September to 
articulate where we are, why it is going in the right 
direction, and gaining the support of the American people is a 
grievous mistake. There is no reason why in September a bitter 
civil war in Iraq will be substantially changed. Yes, there are 
international terrorists there. Yes, there are 500 or so al 
Qaeda terrorists, most of them, I might add, who are Iraqi. But 
the bottom line is we are engaged right now in trying to tamp 
down a terrible struggle to the death for political survival in 
a bitterly divided nation. It seems to me we have to give 
General Petraeus a year to see if this so-called new set of 
tactics and approach will work, or I don't see any particular 
pay-off.
    Second, it seems to me we now have not only a new, 
brilliant, modest, experienced, team-playing Secretary of 
Defense, we have got to give Dr. Rice and her ambassador Ryan 
Crocker the opportunity to start arguing for regional dialogue. 
That isn't an AAA conference, that isn't two one-day meetings. 
It seems to me you set up a forum, probably in a safe zone, 
Saudi Arabia, Kuwait or wherever, and you get the parties 
talking for the next five years. We have got to give her a year 
to engage regional dialogue.
    Third, and the thing that I banged away at from the start, 
here we are losing 1,000 or so marines and soldiers killed and 
wounded a month, quite happily putting almost half of our 
combat power on the ground in Iraq, but we have not adequately 
resourced the Iraqi Army or Police from the start. It is 
immeasurably better today than it was a year ago. Petraeus, 
Dubik are now starting to get the kinds of resources they need.
    But at the end of the day, we are out of Iraq in 36 months 
or less unless the Iraqis turn this around. When we leave, will 
we leave a force that has the potential to maintain internal 
order? And if the answer is it is 500 Cougars instead of 5,000 
armored vehicles, if the answer is it is 70 junk Soviet 
helicopters when we have got 900 helicopters on the ground, if 
it is 3 C130's when we are using a huge piece of our Air Force 
lift assets to sustain this war, then we are not in the right 
ballpark. We cannot allow the Iraqi Army and Police to try and 
confront the situation on the ground with the anemic resourcing 
we have done to date.
    Fourth observation, it seems to me, and this would be, you 
know, an almost antistrategic note, that we have got to draw 
down the force in Iraq. The Army, and to a lesser extent 
Marines, Air Force lift, Special Ops are starting to come 
apart. I would actually tell the Commander of CENTCOM, when 
this Administration leaves office, you have this force down to 
ten brigades, and you tell me what you are going to do with 
those ten brigades. But it is unmistakable in my mind that 
starting in April, the U.S. Army starts to unravel at an 
accelerated rate. It is already severely degraded. This is the 
first time since World War II that we are strategically as a 
ground combat force in such a vulnerable position. If the other 
shoe drops, Castro dies, a half million Cuban refugees, 
miscalculation on the Korean Peninsula, a whole series of 
potential vulnerabilities, a major strike on the homeland, with 
millions of refugees in flight, we have left the U.S. Armed 
Forces, the U.S. National Guard, the central load-bearing 
institution of domestic security, ill-equipped to move forward. 
So we have to draw down the force. We have got to tell the 
force providers, get on with it.
    Fifth, it seems to me we have to get out of the cities. 
Now, I have no real argument. I think Petraeus has come up with 
a committed engagement strategy. I personally do not believe we 
are in Iraq to fight a counterinsurgency battle or to win the 
hearts and minds of the Iraqi people. We are there strictly to 
stand up a government, stand up a security force, ensure there 
isn't regional mischief that would knock the Iraqis off track, 
and then to largely disengage. So I think we ought to get out 
of the city. I don't understand why 30,000 U.S. combat troops 
in the city of Baghdad with 5-, 6 million Arabs murdering each 
other with electric drills, car bombs and 120 mortars, why are 
U.S. GIs door to door the solution to an underlying bitter 
sectarian struggle?
    Seventh, we got to resource our failing military. And when 
I say resource, I don't just mean manpower. You know, we got 
this almost ludicrous notion that we are going to build the 
Army at 7,000 people a year. For God sakes, there are 300 
million of us. We would have come apart already were it not for 
our Reserve components and National Guard. The Army should be 
850,000 people. The Marines are short 25,000 at a minimum. We 
have 124,000 contractors on the ground in Iraq, without which 
communications doesn't work, logistics doesn't work. Almost no 
military function can be carried out except maneuver warfare 
because we lack the uniform capability to carry out these 
operations.
    I might also add that 20 years from now when this committee 
has a hearing, the question will be, as the PRC legitimately 
emerges as a giant economic and military power in the Pacific 
region, do we have a high-technology Air Force and Navy two 
generations in advance of the threat as a deterrent to mischief 
in the Pacific region? And I would argue we are draining 
modernization dollars out of the Air Force and Navy to spend on 
consumables to fight the short-term war.
    We can't forget about the next tier of countries, Saudi 
Arabia and Pakistan. I went in for General Abizaid, spent a 
week in Saudi Arabia looking around. These people are drowning 
in money. They send their kids to our schools. They bank here. 
They had three U.S. Senators visit Saudi Arabia in three years. 
We have shunned them in the international community. They are 
vulnerable to what they see as the Persian threat to the east, 
and now, given the mess we have made of Iraq, to the north. The 
Pakistanis are vital to our continued prosecution of the 
operation in Afghanistan. So we got to pay some attention to 
the next line.
    And finally, and I am echoing General Newbold's comments 
here, I actually don't think, notwithstanding the incredible 
leadership we now have, thank God, engaged in this, Secretary 
Gates, Rice, Petraeus, Crocker and others, I don't think we are 
going to decide the outcome in Iraq. I think this is an Iraqi 
issue. It bothers me intensely when I hear the great pride all 
of us have at battalion and brigade commanders with CERP funds 
picking up garbage, fixing sewage systems. That is not why this 
war is happening. These people aren't murdering each other 
because they are out of work or there is trash in the streets. 
They are fighting over something quite logical, power and 
survival, and the world that will exist when we come out of 
Iraq. So I think we ought to have a more--as General Newbold 
already articulated, a more modest view of what is possible. 
This is going to be an Arab country and an Arab army when we 
leave in three years.
    Thank you.
    Dr. Snyder. Thank you, General McCaffrey.
    [The prepared statement of General McCaffrey can be found 
in the Appendix on page 46.]
    Dr. Snyder. I wanted to acknowledge the presence of Adam 
Smith of Washington State, who is a member of the full 
committee, like Mr. Saxton, but is also not a member of this 
subcommittee. And we appreciate him being here today, and, 
without objection, will be allowed to participate.
    Dr. O'Hanlon.

 STATEMENT OF DR. MICHAEL E. O'HANLON, SENIOR FELLOW, FOREIGN 
           POLICY STUDIES, THE BROOKINGS INSTITUTION

    Dr. O'Hanlon. Thank you. It is an honor to be here. I 
appreciate the opportunity.
    The previous witnesses have already talked a lot about 
conditions in Iraq, and I would agree with General Keane and 
others that a number of trend lines are in the right direction 
at the tactical military level against certain of our enemies.
    But, Congressman Akin, you asked me to talk about my trip 
and the concept of soft partition. I want to hone in right on 
that, because I think that overall we are seeing greater 
progress against the extremist militias, al Qaeda in Iraq and 
related Salafist movements, some of the more extreme Shia 
militias; less progress, however, in dealing with the sectarian 
war, the civil war. And I think if I was going to summarize our 
progress so far, we are actually making a fair amount of 
headway annihilating al Qaeda in Iraq and other Salafist 
movements, especially since the Sheiks have started to switch 
sides and work with us. But all we have done with the civil war 
is suppress it. We haven't solved it. And it is mostly because 
of the Iraqi political leadership not having done their part, 
whether at the top down or even at the bottom up so far.
    Let me, if I could, begin with an image of a neighborhood. 
I know a lot of you have been to Iraq, and a lot of you have 
studied the different neighborhoods. A couple neighborhoods in 
Baghdad where the problem was vivid for me. Both of them were 
sort of along the airport road, from the Green Zone toward the 
west of the city, al Mansur to the north of the road, west 
Rashid to the south.
    In the al Mansur area, and this is Ghazaliya specifically, 
what you are seeing is you have got Shia up in the northeast 
part of that neighborhood, and it is probably half a million 
people or more in this overall sector of town. It is a large 
part of Baghdad. And you have got Sunnis sort of to the 
southwest. And what we are doing is putting up a lot of 
concrete barriers and allowing a lot of Iraqi forces to man 
checkpoints, protecting their own neighborhoods. And there is a 
real good logic to that as long as we are there.
    But what is the transition strategy? Which Iraqi units are 
going to be able to replace us in that objective, nonsectarian 
way? Now, you could say that the Shia can patrol their 
neighborhoods, the Sunni can patrol theirs. And that works as 
long as no one decides to rock the boat too much. But then they 
can start blocking each other's access points into their 
neighborhoods. They can start getting in mortar fire into each 
other's zones. You can imagine that coming undone. So that is a 
hard problem.
    Even worse is West Rashid to the south of the airport road, 
because there, again, remarkable progress of our forces in 
essentially freezing in place the current situation, 
suppressing the violence. But what you have got is a 
checkerboard, Sunnis here, Shia there, Sunnis here, Shia there, 
all over that district. And there is not an economically viable 
subunit you can create that is all or mostly Sunni, and then 
another one that is all or mostly Shia. You can't even begin to 
put up concrete barriers and checkpoints, because if you try, 
you cut these people off, little urban ghettos of a few blocks 
on a side, and it doesn't work.
    So this, for me, is the challenge. I don't think we have 
got this solved. I wrote an optimistic, overall positive op-ed 
yesterday with Ken Pollack about a lot of our progress, but 
this piece of it is going to require some major headway if we 
are going to be seeing our way toward a viable outcome in Iraq, 
and also some kind of an exit strategy.
    So are what are the various ways you could see that happen? 
Well, one of them, of course, is if current strategy can really 
succeed on the political front in a way that it so far has not 
at all. And the Iraqi leadership is going to have to come along 
and start making compromises at the top. Over time you can try 
to build a nonsectarian military. General Keane quotes the 
total numbers. I am actually even more interested in the 
numbers that we think are nonsectarian, and right now that is 
probably in the few thousands, a few thousand total people 
equivalent. And we are going to have to get those numbers up 
into the tens of thousands so they can at least patrol these 
intersectarian fault lines.
    That is one strategy. Political leadership at the top helps 
create a more viable environment for compromise. And then from 
the bottom up you build up these nonsectarian security forces, 
and you develop a transition strategy. That is ambitious. So I 
put out another proposal, which is also ambitious, and this one 
is with Ed Joseph, the soft partition argument, building on 
Senator Biden. And I know people like Rahm Emanuel and some 
others have some interest in this kind of idea as well.
    The idea there is to say maybe it is just too much to 
preserve some of these checkered neighborhoods. Maybe you are 
better off allowing people, or even encouraging people, not 
forcing people, to move, so that you essentially have more 
sectarian homogeneity in some of these neighborhoods, and you 
can put your more modest number of nonsectarian forces along 
the fault lines between these different groups. And the concept 
here is Baghdad is going to be mostly a Shia city. It already 
is, frankly, but you would allow the process to go a little 
further forward. But you would help the people who move with 
houses and jobs, and there are a number of mechanisms by which 
you could do that. I won't go into the details right now. But 
that is the kind of concept that I think is behind soft 
partition.
    You also then take this notion we are applying at the 
neighborhood-by-neighborhood level and you broaden it, which is 
the idea of creating local security forces that are designed 
and hired to protect their own people, their own neighborhoods, 
their own kin. That is what is working in al-Anbar. That is 
what is working in a number of other places. The logic of soft 
partition says do that more generally throughout Iraq. Try to 
create three autonomous zones. And most security forces then 
work for the autonomous regional governments. And, of course, 
the police would be recruited and trained locally and protect 
their own neighborhoods.
    So another big piece of this, in addition to the job 
creation, the housing help and the population movements, is 
putting more of the security forces under the control of the 
regional governments.
    There are a number of other aspects that we try to think 
through in this report that I did with Ed Joseph on the 
mechanics of soft partition. I am happy to discuss those in the 
Q and A. I don't want to throw too much detail right at you in 
the way of just conjuring up this image.
    But let me conclude by saying I would agree with a number 
of the American and Iraqi officials we met with last week, and 
a number, of course, of you who have talked with me about this 
plan who say it can't work until the Iraqis want it, and right 
now for the most part they don't. A number of Kurds do, and the 
occasional Shia. Mr. al-Hakim, for example, has been in favor 
of this at times. But precisely because Hakim is in favor of 
it, other Shia are not in favor of it. And Sunnis still worry 
that this will be a way to ultimately put them off in the 
western ghetto of Iraq, without oil, without much control and 
influence in Baghdad.
    And there are a lot of things that you have to mitigate in 
terms of people's fears before this plan can work, but I think 
if you share oil equally, which, you know, on a per capita 
basis, which has to be part of any future concept for Iraq, 
soft partition can actually offer something to each major 
ethnic group. For the Kurds, it is not much change from what 
they have got. For the Sunnis, it allows them to 
institutionalize policing themselves and get the Shia militias 
to agree to stay out of their neighborhoods and give them some 
more defensible front lines. For the Shia, it allows them to 
finally build the democratic Shia-led state that, frankly, they 
have wanted for a long time, and for two and a half years after 
the invasion they were willing to try to build without much 
violence, until things just got out of hand.
    So I am happy to go into this in more detail later, but my 
trip, as much as it made me optimistic about the tactics that 
we are using and the military progress, it led me to think that 
we have not yet solved the ethnic problem or the sectarian 
problem. We have to get a solution to that. One piece of it 
could be the current strategy, and we finally see 
reconciliation and compromise among the different leaders in 
Iraq. But another strategy might be for them to agree, listen, 
we better agree on one thing if we can't agree on other things, 
which is we are better off living somewhat apart and preserving 
a limited state rather than pretending we can actually stitch 
it all back together.
    So I still stand by soft partition as my preferred 
political framework. Unfortunately, right now I don't have 
enough converts to have that be the main proposal. So Senator 
Biden and a few others and I are going to keep pushing it. I 
don't think it has to be the framework. I think you might be 
able to pull it off with the current strategy, but I am 
dubious, even after my generally inspiring trip of last week. 
Thank you.
    [The prepared statement of Dr. O'Hanlon joint with Edward 
P. Joseph can be found in the Appendix on page 57.]
    Dr. Snyder. Mr. Benjamin.

STATEMENT OF DANIEL BENJAMIN, DIRECTOR, FOREIGN POLICY STUDIES, 
            SENIOR FELLOW, THE BROOKINGS INSTITUTION

    Mr. Benjamin. Thank you very much, Mr. Chairman. 
Representative Akin, members of the committee, I want to thank 
you for the opportunity to testify today, and especially to be 
in here in such distinguished company.
    The previous speakers have all addressed the very largest 
issues. I would like to narrow my focus a little bit here and 
discuss really just the different sort of scenarios we might 
envision in terms of the terrorist threat as it might develop, 
depending upon how we pursue our policy in the region.
    Let me restate the obvious and say that prediction in this 
environment is especially hazardous, and we have all paid a 
price for overly optimistic scenarios over the last several 
years. Let's begin by acknowledging a fact that I think now is 
beyond dispute. There were no jihadist terrorists in Iraq 
before the U.S. invasion of 2003. Today there are probably 
several thousand. Some are undoubtedly foreigners, including 
most of the suicide bombers. Nonetheless, this is primarily an 
Iraqi group, and it will comprise a significant security threat 
for some time to come.
    Well, what is the future of al Qaeda in Iraq? We have heard 
from my colleague Mike O'Hanlon, the man in the next office, 
that there is good news, and I welcome that. But I have to say 
that we have had an awful lot of relentlessly downbeat news 
over the last few years, and at the moment I am prepared to 
look on the pessimistic side and to prepare for the worst.
    Al Qaeda in Iraq (AQI) has shown itself over the years to 
be an adaptive and highly mobile organization. It can move 
operations to areas of greater opportunity at really the snap 
of a finger. It is resilient. It has demonstrated the ability 
to penetrate Iraqi forces and the regime. And we need only 
think back a few weeks to the bombing in Baghdad that killed 
several of those al-Anbar sheiks who had decided to cooperate 
together against al Qaeda. I would argue that absent a broader 
political agreement that creates a framework for nationwide 
security, we may reduce the group, but we will not eliminate 
it. And the fact is the tool we have used against al Qaeda, our 
military, is far from the ideal one for combating terrorism, 
through no fault of its own. It simply wasn't designed to do 
this, and it is a very difficult target for the military. Until 
we have a strong Iraqi intelligence service working in the 
country, we will continue to face very serious difficulties.
    Well, what is al Qaeda in Iraq going to be doing over the 
next few years? If we maintain our presence in the country, I 
think there is no question they will continue to target us 
first and foremost. After all, this is how they demonstrate 
their valor to like-minded people within the Muslim world, and 
this is how they demonstrate their bona fides, by killing 
Crusader forces. We should also expect AQI to continue attacks 
designed to cause large numbers of Shia casualties and to stoke 
sectarian strife.
    What if the U.S. withdraws from Iraq, under whatever set of 
circumstances? A central argument of the Administration has 
been that a U.S. Departure from Iraq would lead to a jihadist 
takeover. I do not find this to be a credible scenario. Al 
Qaeda is losing support among Sunnis, as we have heard, and a 
few thousand people are simply not going to take over the 
country. Even if all the other Sunnis stood aside and the Iraqi 
military were to dissolve, the Shia militias would still stand 
between al Qaeda and that kind of dominance. Al Qaeda in Iraq 
has also shown an incapability of holding territory over a 
sustained period of time. In short, jihadist Iraq is an 
improbable outcome.
    A more likely outcome, actually, of our departure is that 
the Shia militias would be galvanized to take on al Qaeda 
directly, and that some of those who have enjoyed watching the 
United States kill Sunni opponents for them would move into 
action. I don't think we should have any--and by the way, they 
might be much more successful than we are because they would be 
less constrained, shall we say, in the use of force.
    We should not have any illusions about what this would look 
like. It would occur within the context of considerable 
sectarian violence. AQI will not shy from this fight. There is 
a strong anti-Shia animus within al Qaeda in Iraq and within 
the broader jihadist movement. Jihadist communications 
frequently describe the Shia as worse than the Americans. And 
the rise of Iran is viewed as a deplorable event.
    Let me emphasize I do not consider withdrawal from Iraq and 
leaving the Shia militias to take on al Qaeda to be an 
attractive course, but I am skeptical, as I suggested before, 
that we can achieve the, quote, complete victory that the 
President has called for in his speech in South Carolina 
referring to al Qaeda.
    Let me try to summarize some of the other points in my 
testimony and move us right along. If we do depart Iraq, we 
will need to devise a reliable covert capability for dealing 
with the problem of terrorist safe havens in largely ungoverned 
space. The problem already exists in Pakistan and may well 
materialize in Iraq. My own view is that our senior military 
commanders have been averse to using Special Forces on 
counterterrorism missions for which they are very trained. And 
I argued in a recent New York Times op-ed with Steven Simon 
that it is time to look at deploying the CIA and giving them 
more responsibility in this area.
    Another Administration argument is a U.S. departure from 
Iraq will embolden the terrorists. Well, obviously there is a 
great degree of truth in this, but I would add that the 
terrorists to a large degree already believe that they have 
been victorious, and one need only read their comments on their 
Web sites and the like. And I think we need to ask what are the 
implications of the sense of achievements that they have 
developed?
    Well, it is often suggested that leaving Iraq before the 
destruction of AQI will lead to an enhanced jihadist threat to 
the United States homeland. Undoubtedly, if there are more 
jihadists out there, then there is a greater aggregate threat. 
However, most of AQI's fighters are going to be incapable of 
participating in any kind of direct attack on America because 
they lack the cultural abilities to navigate in Western 
societies. A few may try to carry their violence to the West, 
and the possibility that one of the doctors involved in the 
recent car bomb conspiracy in the United Kingdom, that he was 
an Iraqi jihadist, is certainly an ominous hint. But if the 
U.S. forces depart, I suggest the more direct threat will be 
offshore to American interests, and especially to the regimes 
of the Muslim world, which are still viewed as apostate and 
deserving of overthrow.
    The dangers associated with this are evident from the 
recent uprising at the Palestinian refugee camp in Lebanon, 
where fighters from Iraq reportedly played a key role. We can 
also look at Saudi Arabia, which recently announced the arrest 
of 172 militants, a very striking event. Terrorism is a game of 
small numbers, and 172 in this context is a very large one. The 
return of only a couple of hundred jihadists to Saudi Arabia 
could prove a challenge for the Interior Ministry and its 
forces. Other countries that face serious domestic terrorist 
problems include Jordan and Syria, the two major recipients of 
refugees from Iraq's turmoil.
    Farther away, we can also see that there may be some 
spillover from Iraq, particularly in Europe. The number of 
Muslims who have traveled from Europe to Iraq appear to be 
relatively small, and many of those have been killed in action. 
It is also true that Abu Mussab al Zarqawi was building a 
network in Europe. But I think a consideration of the European 
dimension of the problem points to one crucial conclusion. 
Against all the problems we may face by departing Iraq, we need 
to balance the gains we would make by reducing the ability of 
AQI members to galvanize others around the world. In Western 
Europe and even the United States, the ability of al Qaeda in 
Iraq to broadcast its heroic deeds in the form of videos and 
communiques has had a powerful effect on those liable to be 
radicalized. Some European experts contend that a U.S. 
withdrawal from Iraq would significantly reduce terrorist 
activity in their continent. I can't say that with any 
certainty, but we need to recognize that this would cap the 
radicals' ability to argue that the United States is a 
predatory power that is occupying an Islamic nation.
    I think that we need to recognize that we are on the horns 
of a dilemma. On the one hand there is the jihadist myth that 
says the United States is a paper tiger, and that will result 
in a certain amount of jubilation if we depart. On the other 
hand is the argument that we are a predatory power in occupying 
Iraq. To a certain extent I believe the jihadists have already 
declared the first part to be--I am sorry, have already 
discounted the first part; that is, it is already built into 
their appreciation of their situation. We would benefit greatly 
by no longer having them able to make the second argument.
    Let me also just turn to one other potential development, 
and that is the danger of what we might call Afghanistan two. 
The news that Saudi Arabia, for example, is buying up tribes in 
Iraq suggests that what we face over the long term, whether we 
stay or not, is a proxy war, and this could have devastating 
implications for the neighborhood and for the rest of us.
    I view the likelihood of a wider regional war as being 
rather slim. These are not militaries that are going to invade 
each other. They are not capable, by and large, of offensive 
operations. But if they do start conducting a proxy war in 
Iraq, then the possibility of anti-Shia sentiment being used to 
mobilize the Sunni world is quite dangerous indeed, and we 
could see this becoming a conflict that sucks in radicals from 
all over the region. And with all the money and weaponry that 
would be delivered to them if this is a replay of Afghanistan, 
we could see a recreation of organizations like al Qaeda, as we 
did in the 1980's and the 1990's.
    I think the United States ought to make it a high-level 
diplomatic priority to prevent that. I am fully cognizant of 
the fact that we have very few levers to deal with this 
precisely because of our lack of influence over Iran. 
Nonetheless, I think that this is something we should be clear-
eyed about and recognize as one of the worst possible outcomes 
we could face. Thank you very much.
    [The prepared statement of Mr. Benjamin can be found in the 
Appendix on page 102.]
    Dr. Snyder. Thank you all for your thoughtful comments. 
Those buzzers you heard were the sound of votes going off. What 
we will do is we are going to take a few minutes, we will use 
my time, Mr. Akin, and see if anyone has questions for General 
Keane, because you will have to leave during these votes. This 
is a series of eight votes. I hope the rest of you can stay. 
Lori on the staff here will help you find rooms with phones, or 
rooms with privacy or treats, or whatever you need to entice 
you to stick around, because most of us will come back after 
the votes. We have about probably five, six minutes before we 
have to leave.
    General Keane, I wanted to ask you one question and see if 
anybody else has any specific questions for you before we have 
to run across the street. When you and I talked on the phone 
last week--and I hope you don't mind me sharing this little 
tidbit here--you expressed frustration, as Mr. Akin and I have, 
with the polarization that has gone on in this debate. It is 
not just in this town; it is just the way the nature of the 
debate is around the country. And the comment you made to me 
stuck with me in which you said, you know, the sides aren't 
that far apart; that, in your view, you used to talk about 12 
to 18 months, and I think you then expressed a view that people 
who recognize--are interested in pulling troops out recognize 
it is going to be a fair amount of time to withdraw troops if 
we started today.
    Would you flesh that out for me? What do you mean when you 
say the sides aren't that far apart, if I am quoting you right? 
Because that is not the way those of us here in this town see 
it.
    General Keane. Yeah, I think so. I don't disagree with the 
President in not stating when he would believe we would have a 
withdrawal of surge forces, because he doesn't want to flag 
that before an operation actually begins. And I think that is 
appropriate behavior for a Commander in Chief.
    But for the life of me, one of the things that just always 
has frustrated me, why we could not get senior congressional 
Democratic and Republican leaders together and share the 
details of what the intentions were; that this was 12 to 18 
months at best, and we were probably going to go back to 
presurge levels in 2008 one way or the other, which is--believe 
me, is going to happen one way or the other, one way being it 
is successful, the other being it is not. And if that is the 
case, that they--we may be, at least at this tactical level, 
which this is, to take, you know, a bipartisan approach to it, 
given the fact that the withdrawal of troops has become such a 
trigger point, you know, for so many people. And I have been 
frustrated from that ever since I got involved in the details 
of this, going back to the November and December time frame on 
this.
    Other than those who want precipitous withdrawal, and just 
keeping moving it right out of the country as fast as you can 
get it, I believe they are on one side, and they are in the 
minority, where there are others who want to start to begin 
some kind of a phased withdrawal, and so does the 
Administration, and so do the military commanders. And why we 
couldn't put that together somehow is frustrating to me.
    Dr. Snyder. Mr. Akin, do you have any questions for General 
Keane?
    Mr. Akin. Yeah, just a couple quick ones.
    I forget how many witnesses we have talked to, but, boy, we 
have talked to a whole lot of them, because we have been doing 
this for a number of weeks at a time, and this has been really 
popular. Usually when you see a committee sitting there, you 
see the Chairman and the other guy who is the Ranking Member, 
who is sort of the captive audience that has to be here, and 
there is nobody else. In all of these hearings you see many 
Congressmen sitting here, because people are very interested in 
what we are talking about.
    Now, one of the things that has happened is a chance for--
having sitting here, has been seeing a pattern in what we have 
heard our witnesses say. So I just want to check if you fit 
into the same pattern. The first pattern is a fairly rapid or 
precipitous withdrawal of troops, aside from leaving us 
somewhat exposed as we are retreating, is going to create a lot 
of problems, first of all, in terms of a great deal of killing 
within the country, and then also regional instability at a 
minimum. Do all of you pretty much agree that we just can't zip 
out of there very quickly? Is that pretty common? Everybody 
else has said the same thing.
    Everyone else said the same thing. The second thing we 
asked was--we asked every one of you and tasked you when you 
came here to this hearing to come up with--if you don't like 
what we are doing, give us a better alternative. Now, of the 
different people we have heard from, nobody has really offered 
us a very different alternative. They have given us all kinds 
of lists of insights and some of them very helpful and 
insightful. But when you come down to what we have heard, most 
people are saying what you are doing right now, I can't think 
of something a whole lot different. This has got to--do you 
disagree with that.
    General McCaffrey. I would not be in that camp. I think 
from the start that the notion that we have not focused as a 
center of mass on the training, equipment and deploying Iraqi 
security forces was a fundamental mistake of the war. I 
wouldn't have dismissed the old army. I would have fired all 
their generals; taken the captains and made them lieutenant 
colonels; equipped them in a first-rate fashion. And it is 
still grossly under-resourced. How could we possibly sit there 
and boast, to me, in Iraq that they were going to send 500 
cougar armor vehicles to the Iraqi Army and me counter with, 
the right answer is 5,000? And in every case across the board--
we are now in, what, year four of the war, we have got an Iraqi 
army driving around in Toyota trucks, no mortars, no artillery.
    Mr. Akin. Let me explain what I am saying. What I'm saying 
is, starting with the beginning of this year, with the new 
approach that we are doing, which is significant----
    General McCaffrey. I still don't see an argument for the 
Iraqi security forces as a----
    Mr. Akin. So what you are saying is----
    General McCaffrey. All the arguments over withdrawing U.S. 
Forces--turn the argument around and talk--regional dialogue, 
internal political reconciliation to build the Iraqi security 
forces. That is the future of the war because we are coming out 
one way or the other in the next 36 months. This war is an 
endgame.
    Mr. Akin. You say we are not doing that currently now 
anywhere near what----
    General McCaffrey. Not even in the ballpark.
    Mr. Akin. Of what you think we should be doing.
    General McCaffrey. Right.
    General Keane. In addition to that is that we have finally 
owned up to the fact that the size of the Iraqi security 
forces, which have gradually, incrementally increased in our 
objectives, is decidedly inadequate given the level of 
responsibility for internal defense. And that thing has got to 
grow, and I think rightfully so, the commander is talking about 
600,000. And some of us for some time have been arguing for 
600,000 or 700,000 is about right, and I completely agree with 
what General McCaffrey is saying, that we have got to properly 
equip them finally.
    Dr. Snyder. I know the doctor wanted to give a question to 
General Keane. It is fair to say to Members, we have got less 
than five minutes to go on the vote. We are in recess. General 
Keane, thank you for being with us. I hope the other four of 
you can stay because we are very interested in what you have to 
say.
    [Recess.]
    Dr. Snyder. We will resume our hearing.
    Gentlemen, I apologize for the delay. And it is bad timing, 
but that just happens sometimes.
    Mr. Bartlett, for five minutes.
    Mr. Bartlett. Thank you very much, and thank you for your 
patience. I am intrigued by the discussion, Dr. O'Hanlon, of a 
soft partitioning of Iraq. For a long time, I have felt that 
there are only two probable outcomes: One is a soft 
partitioning, and another is another strongman hopefully a 
little more benevolent than Saddam Hussein was. I just don't 
see any middle ground for people who have been at each other's 
throats for 1,400 years, which is why, by the way, I voted for 
the Spratt substitute which said we shouldn't go to war in Iraq 
unless we had a U.N. Resolution so that it wasn't our war; it 
was their war. If the President couldn't get that, I wanted him 
to come back to the Congress for another vote before we went 
there.
    My question about the soft partitioning is, how do you 
handle those that are living in the wrong place? Clearly we 
could have built a McMansion for each one of them with far less 
money than we spent on the war if that is what we were going to 
do going in. And second, what do you do about those mixed 
marriages, you know, to make sure that there wasn't going to be 
any problems?
    Before you answer my question, before my time runs out, I 
would like for you to help me in the little poll I have been 
conducting. If you will take a piece of paper and write on it 
four things: They hate each other. They hate al Qaeda--General 
McCaffrey, unless you have a fantastic memory----
    General McCaffrey. I am actually sort of reluctant to get 
involved in wherever you are going.
    Mr. Bartlett. I want you to write down four things, and 
beside each one of those four things, I want you to put down 
the percent of the violence in Iraq that you think is 
engendered by that. Okay? So the four things are: They hate 
each other; they hate al Qaeda; they hate us; and something 
else. We are just trying to get some sense of what the problem 
is. We have a lot of violence in Iraq, and we are trying to get 
some sense of where it is coming from. And we have now asked a 
number of people this same question. Hate each other, hate al 
Qaeda, hate us and something else. If you would just write down 
the percentage of the violence in Iraq that you think is 
engendered by each of those.
    General McCaffrey, you seem to have finished. If you could 
give me your numbers.
    General McCaffrey. I don't want to accept the premise of 
your argument. I think that where we are is, we are involved in 
a struggle in a country of 28 million people. We have got 
160,000 of our terrific kids in there. It is overwhelmingly a 
civil war between two of the three factions. There will be a 
second fight between the Kurds and the Arabs in the coming five 
years. And interlaced with that, we had a huge failure of 
governmental institutions in Iraq allowing massive criminality, 
men who threaten Iraqi mothers and business people. And then, 
on top of that, we have got elements of an international 
jihadist movement throwing kerosene on fire. So I think that 
complexity is what we are trying to deal with.
    Mr. Bartlett. They hate each other you would place very 
high? It is a civil war?
    General McCaffrey. I think the dominant challenge right now 
is--but I am not sure it is hatred. It is fear, fear of the 
future. It is, where am I going to be five years from now when 
the Americans are gone? And that is really the crux of it. And 
they are logical to be fearful of the future.
    Mr. Bartlett. One of our witnesses described--if you had to 
use one word to describe the climate over there, it is fear was 
the word he used, if you had to limit it to one word.
    General Newbold, do you have numbers down by yours?
    General Newbold. Sir, I am with General McCaffrey on this 
in one sense, and that is, I am reluctant to give precise 
numbers. I would say overwhelmingly the two reasons for the 
violence in Iraq are: They perceive us as an occupying power in 
their country; and the other one is the bitter sectarian issues 
and the fear, as General McCaffrey described, to cause them to 
want to defend or attack. Overwhelming it is those two, and 
there is some fighting with al Qaeda now.
    Mr. Bartlett. So problems with each other and with us are 
the two major reasons from your perspective.
    Do the other two have numbers down?
    Dr. O'Hanlon. I will go quickly if you allow me to modify, 
as General McCaffrey has, from hatred to fear. I will say 50 
percent for that; and then 35 percent al Qaeda; 15 percent U.S.
    Mr. Bartlett. And one last.
    Mr. Benjamin. I think I am going to duck on the numbers as 
well. But I would note that if you simply break down the number 
of casualties, then it is overwhelmingly sectarian. But if you 
were looking at the amount of ordnance that is being spent on 
attacking the United States, you might come up with a very 
different sort of figure. So, you know, it is a very confusing 
sort of situation. In terms of the big picture, I think there 
is relatively little violence that involves their hatred for al 
Qaeda. But that is simply because of the numbers that are 
involved.
    Mr. Bartlett. That has been pretty consistent with all of 
the witnesses. So you would put down problems with each other 
and problems with us are the two major reasons for the 
violence?
    Mr. Benjamin. Yes. And sometimes it is hard to disentangle 
them, too; in other words, that our presence may be providing 
an opportunity for sectarian violence by providing a shield of 
some kind or--it is simply a profoundly complicated dynamic 
that is unfolding. And in fact, even to say it is sectarian is 
often confusing because we have lots of violence between Shi'a, 
for example, and lots of violence between different groups of 
Sunni. So, very often, it is criminality; it is turf 
protection. I think that what we are getting at here is the 
concept of a civil war is in some ways not appropriate for 
this. There is a civil war going on, but there is also a war, 
as Thomas Hobbes would have called it, a war of all against 
each other. And that is part of the reason why bringing a 
pacification strategy to any kind of successful conclusion is 
so difficult.
    Mr. Bartlett. I understand the problem, Mr. Chairman, 
giving a quantitative answer to a qualitative problem. But 
thank you all very much.
    Thank you, Mr. Chairman.
    Dr. Snyder. Ms. Davis for five minutes.
    Ms. Davis of California. Thank you. Thank you, Mr. 
Chairman.
    Thank you all for being here. Let me just catch my notes 
for a second. One of the things that was said earlier is that I 
think, maybe as General Keane said, that he was perplexed by 
the fact that we hadn't really spoken about our intentions, had 
not been clear about where we were going. And on the other 
hand, you spoke about the need for regional strategies, a 
strategic plan. I would like you to talk a little bit about the 
capacity issue because I have always been concerned that we 
didn't really have the interagency infrastructure. We know 
that. It was mentioned that we should provide the military 
resources, too.
    I think, General McCaffrey, you mentioned that we ought to 
be giving the Iraqis better equipment, more equipment. Why 
aren't we doing that? This whole issue of whether we are able 
to develop the capacity to do what we want to do right now, 
where do you see that? If that is something we should be doing, 
why aren't we? Is that a problem of the Congress? Is it 
something that, again, in the capacity that we ought to be 
doing more in terms of oversight? Where do you see that? How 
would you grade that, and how would you grade it in the next 
six months? I mean, how is it going to improve?
    Dr. O'Hanlon. I can begin with an anecdote from my trip 
which is that we met a number of Iraqi security forces 
complaining about how Baghdad was not providing them the 
equipment that they were due. And this gets to the point 
General McCaffrey was making, and I will defer to him and 
others in a second. But there is the question of whether the 
U.S. should be doing this now or the Iraqi central government. 
Unfortunately, if the Iraqi central government won't, that 
doesn't happen. So you could conclude, if they are not doing it 
fast enough, we really have to step in even though it breeds a 
certain dependency in them. That is the conundrum I think. It 
is not for sure lack of attention to the issue. But they are 
complaining that, for example, some of the Sunni units are not 
getting help from the Shi'a dominated ministry of the interior. 
And that is a big part of the challenge. And just also Baghdad 
not having the capacity to administer properly. It is one of 
the reasons that those of us who favor decentralization or 
regionalization believe that you have got to lower the role for 
Baghdad in some of these decisions.
    General Keane. If I could make a comment. The first part of 
your question, ma'am, addressed intentions and interagency 
process, et cetera. We have done extremely poorly in that 
regard. The interagency process has been broken. The Afghan 
crisis and the one in Iraq have been militarized. And it is my 
strong view that--particularly in Iraq, where you are dealing 
with an insurgency and a civil war--that the problems and 
therefore the solutions have a breadth about them that are 
economic, political, diplomatic, informational and military and 
that we have done extremely poorly in understanding the 
sophisticated nature of the conflict and therefore in 
articulating our intentions and the clear strategy for going 
about it. And that is why I recommended the Goldwater-Nichols 
for the interagency.
    General McCaffrey. Let me first of all endorse General 
Newbold's characterization of the struggle. Put it in context, 
from the start, I thought taking out the Saddam regime was the 
right thing to do. And General Newbold and others were looking 
prescient and in later years didn't agree with that. But I 
thought going in and knocking him out of office before he got 
nuclear weapons, we would have to do it now or five years 
later. And I now think that the consequences of leaving them in 
the lurch will be catastrophic for the region, for the Iraqi 
people and for our own interest.
    Having said that, even the President's characterization of 
the struggle uses conceptual architecture that is entirely 
inappropriate in my personal judgment of what we are doing, 
talking about victory, talking about al Qaeda in Iraq, 
mentioned 30 times in a speech, they will follow us here. That 
is not what is going on for God's sake. We are not going to 
have a classic military victory in Iraq. I don't even like the 
word counterinsurgency.
    The Maliki government--the Kurdish in the north are doing 
pretty good. But if you look at each province of Iraq in turn, 
there is no province in the country in which the central 
government holds sway. How can you talk about an insurgency 
against a government that is dysfunctional? So if you can't 
talk about the problem in a realistic light, then you can't 
come up with a strategy to confront it. And that has been part 
of our problem. Mr. Rumsfeld was in denial of the evidence in 
front of his eyes and dominated this government and intimidated 
the Congress. And we are way down the road now and in trouble.
    Dr. Snyder. Mr. Jones for five minutes.
    Mr. Jones. Mr. Chairman, thank you. And I thank the panel 
for being here. And for a moment, I have to go back a little 
bit in history. For the last four years, I have sent over 6,700 
letters to families and extended families who have lost loved 
ones in Afghanistan and Iraq. That is my mea culpa for voting 
to give the President authority to go into Iraq. Afghanistan, I 
am all for it. Rudyard Kipling wrote some writings called, 
``Epitaphs of the War, 1914-1918.'' His son was killed in World 
War I. He did not become a hawk after his son's death. And 
under, ``Common Form,'' he said, ``if any question of why we 
died, tell them because our fathers lied.'' And I feel guilty 
because I didn't do what I should have done when we were 
getting all these classified briefings.
    General Newbold, very quick. I want to read from your 
article in 2006 why Iraq was a mistake: From 2000 until 2002, I 
was a Marine Corps lieutenant general and director of 
operations for the Joint Chiefs of Staff. After 9/11, I was a 
witness and therefore a party to the actions that led us to the 
invasion of Iraq and unnecessary war. Inside the military 
family, I made no secret of my view that the zealots' rationale 
for war made no sense.
    When you wrote that article, did anyone in this 
Administration call you and say, General Newbold, why did you 
write that? Tell me what happened that made you want to write 
that article? Did anyone ever ask you that question?
    General Newbold. No, sir. I think I was off the Christmas 
card list by that time.
    Mr. Jones. Well, I am there with you, by the way, now 
because of my position. I say that, Mr. Chairman, because we 
cannot go back. You are right to say we do not go back. But if 
we don't learn that, whether it is a Democratic Administration 
or a Republican Administration, that we must demand the truth 
and those who created the lie and the misconception and 
manipulated the intelligence should have to go before the 
American people and apologize. They should have to apologize 
because you do not send people to war unless you have no other 
choice. And we had a choice. And we did not pursue the options.
    And again, I want to thank you, General Newbold; you and 
General McCaffrey, I thank you both, and these fine gentlemen 
to your left. For the military people, as far as I am 
concerned, you are two of the top heroes in this country. And I 
thank you for being men of integrity that deal with honesty--
whether I agree with it or not--that you deal with honesty, and 
I appreciate that from both of you.
    When I listen to General McCaffrey and General Newbold and 
Dr. O'Hanlon and Mr. Benjamin, I hear what might be happening 
is good or somewhat good. You talk about, Dr. O'Hanlon, the 
fact that we have got to have a stable government. You made 
that clear. I am not putting words in your mouth. You made that 
clear. You said the military cannot do it.
    I hear General McCaffrey and General Newbold say that, by 
April of next spring, if we are still there under this stress 
and pressure, meaning our military, we are going to start to 
unravel. General McCaffrey, when we start to unravel, what 
should Members of Congress be looking for to see that we are 
unraveling?
    General McCaffrey. Well, I think for the last 24 months, I 
have been talking rather predictably about what will happen 
when you get an Army of essentially 500,000 people, you call up 
a huge number of your Guard and Reserve to sustain it, you put 
them in an operation where essentially we have got 44 brigades; 
22 are in Iraq; 2 are in Afghanistan. Right now, we have no 
operational strategic reserve. If there is a problem in Korea, 
Cuba, you name it, we are in trouble. Thank God for the Air 
Force and the Navy and for nuclear weapons, which are providing 
a deterrent element to mischief during this period of huge 
vulnerability.
    I personally don't believe--I better not believe that this 
Secretary of the Army, this Secretary of Defense are going to 
sustain this surge beyond April. The next rotation does not 
work. We are going to start sending--one of my sons, a fellow 
entry battalion commander in the 82nd airborne, had a battalion 
that was home for 48 days; they sent them back on 6 months, 
extended it to a year, extended it to 15 months. We are going 
to have our staff sergeants and our captains are going to walk 
on us. So the leadership--our most precious asset isn't our 
equipment, our marvelous technology; it is our leadership. And 
I gave a talk yesterday, a couple of days ago, in the Army-Navy 
Club. One of the dads came up and said, my son is now deploying 
on his seventh tour as a JASOC operative. We have allowed this 
tiny military force and an undermanned CIA and Defense 
contractors to fight the war. And the rest of us aren't in the 
war.
    Dr. Snyder. Mr. Johnson for five minutes.
    Mr. Johnson. Thank you.
    I was struck with some of the testimony or by some of the 
testimony today having to do with the anguish in not being able 
to make things happen with the Congress; in other words, 
Congress not being able to come together to kind of work on 
something that--come to a consensus as far as our strategy for 
going forward. And it just seems to me that we have to take 
into consideration the fact that Congress is elected by the 
people, and Congress is a coequal branch of government to the 
executive branch.
    And in the Congress, you have got two Houses; someone 
elected every two years. That is us, the House. And it makes us 
very in tune with the people. We are subject to the people. And 
the people were at one time in favor of this war, but they have 
now lost confidence, and the American people want to see this 
war come to an end. They want to see us redeploy our troops and 
get them out of harm's way in the midsts of a civil war in 
Iraq. And I think that that is the reason why Congress and the 
military leadership, along with the executive branch, were 
unable to come up with a consensus. It is because of the 
American people, and that is to be respected, and that is 
really an admirable part of our system of government.
    And I respect the people, the collective wisdom of the 
people. And I don't fear what will happen in Iraq when we come 
out because come out is something that we will have to do. And 
I think you all agree with that. It is just a matter of when. 
And certainly how is extremely important. And as soon as we can 
re-enlist the confidence of the American people in terms of how 
we exit from Iraq, that is going to be the best thing that I 
think we can do.
    And so I have a hard time, General Newbold, with this 
concept of winning the war in Iraq or victory. Many people in 
America feel like that is not possible. What is your definition 
of winning the war?
    General Newbold. Well, sir, you will recall the way I 
characterize that is that, having gotten into a fight that we 
should not have entered into, then it was important to win. And 
using that very general term, because the consequences of 
disruption to the region and et cetera were so grave. But 
following that, I then outlined the reasons why I don't think 
that is any longer possible and that it is important to have a 
strategy of more moderate aims to sustain America's leadership 
in the world community and to conduct the withdrawal in a way 
that may allow the Iraqis to assume their responsibilities, the 
preeminence of their responsibilities, while we draw down our 
forces. So what I am trying to do is, in a moderate withdrawal 
timeline, is to retain as much as we can of our strategic 
interests in the world while giving some opportunity for the 
Iraqis to govern their own country.
    Mr. Johnson. In terms of being able to supply the Iraqis, I 
think someone mentioned about we have an anemic resourcing of 
the Iraqi army. General McCaffrey, isn't that because we cannot 
trust them to not turn those arms against us?
    General McCaffrey. Well, certainly there are a bunch of 
valid arguments for not appropriately equipping the Iraqis. 
They are going to use the weapons against each other. They are 
going to use the weapons against their neighbors. They are 
going to use the weapons against us. They are simple people. 
They can only use Soviet junk, so we are going to give them 
recycled Soviet equipment.
    A bunch of those arguments are all very interesting, but a 
prerequisite to us getting out of there in 36 months is leaving 
in place security forces that can protect the people. I 
actually think Dr. O'Hanlon is right. I don't think we are 
going to adjudicate soft partition. But I do think we can leave 
neighborhood cops with guns, regional forces. Because in that 
part of the world, disarmament invites slaughter. So I would 
argue that we--necessary, but not sufficient condition of 
withdrawal is that we better stand up the Iraqis in an 
appropriate way. Certainly helicopters, C-130's, body armor, 
U.S. small automatic weapons, light-armored vehicles.
    If we are willing to spend $10 billion a month driving 
around Iraq getting blown up by IEDs, why wouldn't we be 
willing to spend $5 billion a year for the next 3 to 4 years to 
appropriately equip their security forces? And so any concern 
about their trustworthiness, I would probably endorse. They are 
not very trustworthy right now. The Iraqi police are a 
uniformed criminal operation. The Iraqi army is a pretty thin 
reed except for certain kinds of units. We have got to stand 
them up. We are going to be out of there in 36 months. We have 
got a very short period of time to accomplish these missions.
    Dr. Snyder. Mr. Sestak for five minutes.
    Mr. Sestak. Thanks, Mr. Chairman.
    I thought that the general, prior to his leaving, although 
I have a different reason why, was correct that there is some 
commonality that I think the Republicans and the Democrats 
might begin to think about of coming together. Because while I 
think this war is absolutely necessary to end, it is very 
insufficient. How we end it as you all have pointed out, the 
means by which we do so is actually more important to our 
security and to the safety of our troops.
    The four elements that I am curious about is how you spoke 
of the U.S. Army, that it is--General, in your terms, that it 
is going to unravel in an accelerated way beginning next 
spring. So some drawdown needs to begin. And then I am taking 
that, how quickly that drawdown can be done. Despite those that 
would like it very soon, an Army study in 2005/2006 showed 
that, with 58 fort operating bases in Iraq and their assumption 
at the time that it would take 100 days to close four at a 
time--now, that is conservative--that is 4 years. You look at 
Kuwait, and we can only put two to two and a half brigade 
combat equivalents into Kuwait to clean them up, shrink wrap 
the helos and get them on the ships at a time unless we build 
more of those facilities. That is 18 to 24 months, because we 
have 48 combat equivalents if you take all the logistical 
stuff. And that doesn't include the 70,000 other containers we 
will probably have to leave behind. So we are beginning to 
unravel. It is going to take some time to do this. So it is not 
like the Soviet Union getting out of Afghanistan and losing 500 
troops as they got their 120,000 out in 9 months.
    The second one that I feel on the political sphere is you 
bring up the specter of the weight of defeat, the concern with 
that. On the other hand, you also brightly brought out--
particularly you did, General, when you talked about the 
People's Republic of China, for instance, where I really 
believe the center of gravity for us in the next century is in 
the Western Pacific. What can't we do because of this specter 
of defeat if we stay too long? Because you have to weigh both 
of them because, to me, Iraq is a set piece within an overall 
security environment. President Bush said we won't have an 
open-ended commitment. Defining the end of that word open is 
the critical issue here. What is that timeline? You said 36 
months. I mean, when do you generals say, you know, we can't 
have a specter of defeat. We are going to try some moderated 
benchmarks so to speak. But when is enough, enough that the 
Iraqis do not have to give us permission, when we say enough is 
enough as you weigh both of the military timeline versus--I 
think it actually fits well into trying to have us come 
together from those who want out soon to those that realize it 
is going to take us time to begin to address our strategic 
interests by giving us some time for the regional. But what is 
that timeline? Yours is 36 months; correct, sir?
    General McCaffrey. The reason I use 36 months is I actually 
don't think Congress should or will have a major impact on the 
operational decisions in Iraq nor the withdrawal rate until 
this President is out of office. I think he is going to be 
forced into a drawdown by the impending partial collapse of the 
U.S. Army by next spring. So I think he is going to start 
drawing down. We will hit the end of his Administration. Then 
we'll have to see, what have the Iraqis done? If it looks like 
it does today, the next President is pulling us out. If it 
doesn't, if they draw back from all out civil war, I suppose we 
could be there for 15 years with 30,000 or 40,000 advisors, 
log, air power, intel, which would be a nice outcome if the 
Iraqis stabilize the situation. So that is the question. Will 
that happen? Yes or no; I really don't have a clue. Certainly 
it doesn't look very good right now.
    Mr. Sestak. General.
    General Newbold. I'll give you the logic for my timelines. 
First of all, I agree with General Keane and General McCaffrey, 
that we can no longer sustain the current levels of operations 
in Iraq beyond about next February. So the forces have to start 
drawing down then anyway. It is my belief that we ought to use 
that as an impetus to the Iraqis, and we ought to use it to let 
a little air out of the balloon of the stressed forces and also 
to let some of the steam out of the hot political debate right 
now. It is my belief that the timeline will accelerate or 
decelerate depending upon actions over there.
    We can indicate a general timeline, but the events get a 
vote of their own. If, for example, the civil war spreads and 
it becomes much more virulent and violent, for my own part, I 
think it is time to accelerate the timeline. If the success in 
Anbar or in Kurdistan spreads elsewhere, then I think General 
McCaffrey's alternative that he listed as one of his may allow 
us to retard the timeline a little bit because essentially 
violence is disappearing in vast segments of the country. So, 
beginning next February/March, I think we start our drawdown. I 
think under the most optimistic timelines, we couldn't do it 
under a year without abandoning people and things and that the 
circumstances on the ground will probably define whether it is 
a year or three years.
    Dr. Snyder. Mr. Saxton for five minutes.
    Mr. Saxton. Thank you, Mr. Chairman.
    And first, thank you for making it possible for me to be 
here. I appreciate it very much. I think this is one of the 
most important activities that is currently going on in the 
Congress, and I thank you and the ranking member for initiating 
it.
    There has been a lot said about Iraq and lots of different 
opinions relative to the process of creating a more stable 
situation which serves the interests of the Iraqi people and 
certainly serves the interests of our constituents here in 
America as well. My perception is that, in the region, Iraq 
certainly does not exist in a vacuum and that it has some 
neighbors that have the potential and in fact are troublesome--
don't have the potential of being troublesome; they are 
troublesome. And I am just curious if you have given much 
thought to what activities we might see on the part of Iran 
once we see the--whether it is a year from now or three years 
from now--when we have a significant drawdown and hence less 
capabilities and a still building or emerging capability on the 
part of Iraqi forces, who are currently trained--in the process 
of being trained for internal security, not external security. 
I see the Iranians as troublemakers, not just now but in the 
future. I think they have some objectives which take them 
literally through Iraq to Syria and Lebanon and maybe some 
other places. So I was wondering if each of you share my 
concern about that, and if so, should we be making some plans 
currently to try to deal with it before it happens if it does 
happen?
    Mr. Benjamin. Shall I take a crack at that? I think the 
Iranians perceive their foremost goal right now in getting the 
United States out of the region. And Iran is a country that has 
traditional borders. It certainly wants to have a great deal of 
influence over Iraq. It is unclear how much influence it 
ultimately will have over Iraq because of tensions between 
Shi'a in Iraq and Shi'a in Iran. And that is a very complicated 
issue in its own right. I think Iran also wants to be a 
regional hegemon. I don't think there is any question about 
that. I don't see Iranian forces mobilizing beyond their 
borders. I am not sure why they would want to do that since 
that would, I think, spoil their effort to be a regional 
hegemon without incurring great costs. And it seems fairly 
clear that the Sunni powers in the region would not look kindly 
upon that.
    The Iranians have over time shown a willingness to use 
subversion and terrorism as tools of policy, and they are 
certainly determined to acquire nuclear capability at a 
minimum. But I don't see them acting as a military force that 
is going to march through the region, if that answers your 
question.
    There is no question that they have been put into an 
extraordinarily advantageous position by the fact that we 
removed their enemies to their west and to their east, and we 
may regret that at some point. But I also think that we as a 
great naval power and with many friends in the region have many 
different instruments for maintaining hedges against Iranian 
ambitions. So I don't see us as being completely out of luck in 
that regard. That said, the diplomacy over the nuclear program 
is very frustrating at this point.
    General Newbold. If I could, Congressmen, I personally 
share your suspicion of the radical regime in Iran. The issue 
is, how do we address it? For my own part, I think a military 
action against Iran would be ineffective and counterproductive. 
The great Achilles heel of Iran is economic. The official 
unemployment in Iran is 20 percent, and there are estimates 
that that is hidden, and it is probably double that. I think 
Iran is a little bit like al Qaeda and Anbar. They have the 
great capacity to ruin themselves. So that by employing the 
most effective tool to convince Iranians themselves that their 
extremist regime is undermining their country and their way of 
life, I think we have a better pathway out of that while 
maintaining a military----
    General McCaffrey. Perhaps I could add to that. Go directly 
to the point of contention of Iranian nuclear weapons. In my 
judgment, they made that decision ten years ago. They are going 
nuclear. The consequences will be harmful to the security of 
the Iranian people. It will prompt a reaction from their Sunni-
Arab neighbors; the Saudis and the Gulf Coast states are 
already talking about nuclear power requirements--that is step 
one--to countering with an Arab-Sunni bomb, the Persian-Shi'a 
bomb. Iran does have huge internal contradictions. Half the 
Nation is Persian. Their unemployment is terrible. The economy 
is terrible. The government is goofy and doesn't have the 
loyalty of the people. Their ability to project power is tiny 
compared to the U.S. naval and air power we could bring to 
bear.
    Having said that, I would caution people. Military Science 
101 is--the most dangerous military operations we conduct are 
retrograde operations, and we have done a lot of them over the 
years, pulling out of the disaster of the Korean War up north 
in the Yalu river. We pulled out of Vietnam, and we are about 
to do the same thing in the coming two to three years. During 
that withdrawal, I would not find it beyond belief that the 
Iranians would intervene in a manner to humiliate the U.S. 
Armed Forces during withdrawal. And I think the ability to put 
a huge Shi'a population, to have them try and seal off our 
lines of communications as we come out with the assistance of 
significant Iranian military intervention is there.
    That is why I have been extremely concerned about that 
Baker-Hamilton Commission, the notion that we will get the 
combat troops out and stand there with embedded trainers. I 
think 34,000 Americans spread all over that great country will 
be potential hostages to Iranian intransigence if we went that 
road. I personally told the President, you keep a floor of 
something like seven brigades. And if you think politically you 
have got to go below that, get out of Iraq in its entirety and 
don't stand there except for a Marine battalion in the green 
zone.
    Mr. Saxton. Let me just ask about the seven brigades. Would 
you leave them in place where they are? All of our brigades are 
kind of located in Baghdad or kind of the central part of the 
country. Would it make more sense to put them someplace else 
under those circumstances?
    General McCaffrey. Personally, I think we ought to get down 
to ten brigades and have a clump of combat division down south 
to guard our LOC, someplace where you can keep the lines of 
communication open. You have got to keep a division around 
Baghdad to tell the Iraqi army, don't throw the government out 
of power, or we will re-intervene. And you probably need a 
substantial force out in the western desert to protect the 
Sunnis, as we withdraw, from Shi'a revenge.
    But the whole Kurdish question then is the next shoe. How 
do you deter the Turks from intervening? I think we are going 
to have to keep substantial combat forces in division-size 
clumps with armor, high intensity combat capability until we 
pull out.
    Dr. Snyder. General Newbold, I was one of those that did 
not vote for the resolution in 2002, but I find myself in the 
position of having great concerns about, where is our 
responsibility now that we are there? You all have approached 
this from the national security perspective; how can we salvage 
what is in the best interest for our country.
    Taking a little bit different tact on it, where is our 
responsibility, the morality of the issue? We had Dan Biden a 
couple of weeks ago--he is probably wrong like everybody will 
be wrong about things we say about this predicament in the 
future. But he says his prediction is he reluctantly has 
concluded we need to leave, and the result will be hundreds of 
thousands if not millions of Iraqi deaths. And I asked him that 
question, where is our responsibility as a nation, as Mr. 
Johnson pointed out, that overwhelmingly supported this war? 
Does that enter into your thinking at all about where we are 
now in terms of our responsibility as a nation?
    General Newbold. I think it does for the very personal 
reasons on the ground that relate to individuals and genocidal 
activities and et cetera. But there are strategic reasons for 
that as well. The United States is committed to this. It has a 
reputational issue. It has credibility issues for now and in 
the future. So for both of those reasons, I think the United 
States has to be prudent, as Congressmen Sestak said, in the 
manner of our withdrawal.
    Dr. Snyder. Mr. Benjamin, in your written statement, you 
discussed a little bit--well, I will probably do an inartful 
job of summarizing this--that you are saying that if U.S. 
troops were to leave, that the publicity that would come from 
that has probably already occurred in terms of the damages 
being inflicted on U.S. Forces. Give me a brief answer. But 
isn't that part of what happened after Somalia, after the 
Lebanon barracks bombing, after Khobar towers in Saudi Arabia, 
that each step of the way, we said that if we pull back, if we 
pull back, if we pull back--I am just stating this as an 
argument--it didn't work out the way we thought it would? How 
can you so strongly make this statement that somehow the 
complete withdrawal at this--starting next week or next month, 
would not be perceived as a much greater defeat for U.S. Forces 
than the kind of activity that is going on now?
    Mr. Benjamin. I think it would be perceived as a much 
greater defeat than----
    Dr. Snyder. And that answers my question.
    Mr. Benjamin. Than Somalia and others. What I am saying is 
that they have already registered a sense that they have 
achieved that goal.
    Dr. Snyder. So you don't think the decision by the Congress 
three months from now or on the defensive ropes this week--I am 
just making this up--that that would not be perceived as 
greater than what is going on now?
    Mr. Benjamin. I think, at the margins, it could certainly 
make a difference. But I think the jihadist movement believes 
that it has achieved a great feat.
    Dr. Snyder. I don't think that General Newbold and General 
McCaffrey or General Wes Clark, who was here a few weeks ago, 
think that that would only be at the margins. Would that be a 
fair statement? I am getting a nod of the head from General 
McCaffrey.
    General McCaffrey. That is a fair statement. Dan Benjamin 
and I agree on a lot of things. In that regard, though, I have 
a greater fear of the consequences of an accelerated time.
    Dr. Snyder. Which, also, Mr. Benjamin, is probably accurate 
in predicting the unreliability of all our predictions is a 
problem.
    Mr. Benjamin. That was the easy part.
    Dr. Snyder. Yeah.
    General McCaffrey, Dr. Kahn was with us about two or three 
weeks ago, and he is the only person that suggested that he 
thought that the Muslim world that had military needed to be 
stepping forward and helping with this troop situation. There 
was a lot of skepticism expressed by the Committee about that. 
He suggested there ought to be about 50,000 Muslim troops. Our 
leverage there is, we have really large amounts of money going 
to countries like Egypt and Saudi Arabia to help them. Is that 
at all a realistic possibility?
    General McCaffrey. No. It is not even on the table, nor am 
I confident it is even a good idea. If we introduced large 
numbers of Egyptians, Syrian forces, would we not start 
building an enhanced threat to the 80 percent of the country 
who are not Sunni Muslim? Would that then generate increased 
intervention by the Iranians? But it is not going to happen. It 
is like legalizing drugs or--it is an interesting debate, but 
nobody is stupid enough to do it. So the Egyptians are not 
going to intervene in Iraq at this point. Certainly the Saudis 
are not.
    Dr. Snyder. Dr. O'Hanlon, in your statement--this is my 
last question. In your soft partition, the movement of two to 
five million people in a country that has already had several 
million move, that doesn't seem very soft. You are asking 
impressive numbers of people to give up land that may have been 
in the family for generations. That doesn't seem like a very 
soft partition.
    Dr. O'Hanlon. Thank you, Mr. Chairman.
    It gets to Mr. CongressmanBartlett's question as well, 
which we didn't have a chance to discuss before. This would be 
a voluntary relocation problem. You only move if you want to, 
and you only do that, presumably, if you--if the fear for your 
own security is great enough and justified----
    Dr. Snyder. If half the neighborhood leaves and the police 
say, you can stay here, but we are going with these folks, that 
is not very voluntary.
    Dr. O'Hanlon. I agree with you. It would be hard for people 
to stay behind. But you would have to work out security 
procedures. And we try to spell them out in the report where 
you would actually promise people a certain amount of residual 
security in the neighborhood they remained. And one last point, 
very quickly, on the issue of mixed marriage, people can choose 
if they want to go or not. But our presumption is, if you get 
up in the range of 90-plus percent of ethnic homogeneity, you 
have much less sectarian strife. Because it is not so much 
hatred that drives it; it is fear. If you have 90 percent 
dominance of one group in one area or another, it is clear who 
is in charge, and therefore we think there will be less 
violence.
    Dr. Snyder. Gentlemen, I am cognizant of the time. You have 
been very patient with us with the votes. Mr. Akin and I kind 
of shorted ourselves just before the vote. I took five minutes. 
We'll let Mr. Akin see if he has any further questions, and 
then we better call it a day so you all can get on with your 
lives.
    Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman. I wanted to probe a 
little bit further on a couple of things that you had said, Dr. 
O'Hanlon, that struck me as interesting. And that is that we 
are having--the successes are the most optimistic things you 
hear. The first things you were hearing almost a year ago was 
there has been some breakthroughs in a few areas with a few 
sheiks in the Anbar province. And then the thing seems to be 
expanding. We seem to be capitalizing on the mistakes of the 
enemies. And at a local level, we are achieving some successes, 
apparently. I guess my question is this, why don't we just 
capitalize on that? Why don't we drive that? Why don't reward 
the local communities that meet certain basic parameters and 
further guarantee them maybe by whatever coercive force we can 
bring to bear on the central government to say, look, there are 
a lot of things that are going to go on here that are not the 
jurisdiction of the Federal Government. I am talking like kind 
of a Republican conservative. Bear with me.
    For instance, education and your local police force and 
food distribution, et cetera, et cetera, the Federal Government 
has nothing to do with that, and you are going to be in charge 
of that right here in your town, and it is time for you to 
start putting your own neighborhood together, your own province 
or state or whatever you want to call it together and 
basically--because what I am hearing is the military may be 
having some modicum of success. But the State Department and 
the political piece of it, we don't have a lot of confidence 
the politicians in Baghdad are going to solve their own 
problem. Why don't we instead say, look, why don't we build 
Iraq the way America was built? Why don't we start with the 
local towns and the local states and build them up and give 
them certain basic rights under themselves and use that as 
pressure to help bring the centralized thing more into focus 
and approach it from that point of view. I guess my question 
is, then, is that practical? What would be the political 
obstacles to doing something like that? And do we have enough 
influence to basically start driving a local solution and put 
local--and then I think the political piece--this is the 
American public. Americans love to keep score. We are sick of 
always seeing that the bad guys have got four more runs on us, 
and we never see what we are getting done.
    It seems like if we put a list together--these are 
parameters of a successful community. There is a minimum amount 
of violence. We have got this, this and this, and all these 
pieces in place. If we start coloring the map in, which 
communities have gotten in and which ones haven't, and when you 
do, we create rewards. Is that a possible way to move forward, 
Dr. O'Hanlon, to start with?
    Dr. O'Hanlon. Congressman, great set of questions. And in 
fact a lot of the benchmarks that we have not talked as much 
about as the oil law or the debaathification process have to do 
with empowering the regions. There is the regional powers 
that--there is the idea of having the regional elections so 
they can be a more representative government. I think Governor 
Tommy Thompson has put forth a plan that tries to argue for 
this idea of empowering the provinces. I think Ken Pollock and 
Tony Cortisman, my two colleagues on this trip, both have some 
sympathies there.
    The main thing that will not achieve, that soft partition 
would--because soft partition I distinguish from what you are 
saying as creating three autonomous regions and rebuilding the 
security forces along those lines. The soft partition is more 
if you worry about the security problem. Your approach I think 
is more of a way to try to do bottom-up politics and hope that 
the security problem might actually diminish on its own if 
governance capacity and the confidence with which services are 
delivered improve and then people have more stake in the 
system. So I think it is a very interesting proposition.
    The bottom line--I won't say who said this to me in Iraq. 
It is not super sensitive anyway. Frankly, what we need is for 
one of these kind of Plan Bs to be become Plan I, where if the 
Iraqis would enthusiastically get behind either soft partition 
or your approach similar to Governor Thompson's or another 
approach of decentralization, I think it would be great. And If 
it doesn't happen, of course, there is only so much we can 
push.
    It raises the question, should we be more actively trying 
to construct a new political arrangement with them? And I would 
say yeah. I mean, I think you try to work in this current 
approach for a couple more months, let everyone know that the 
surge is achieving some military goals, but it cannot continue 
to do so unless there is political help from Baghdad. If that 
doesn't happen in the course of this fall, let's say, then 
we've got to find a Plan B or give them an ultimatum, Plan B or 
get out. I think that is the conversation we may need to have 
with them within let's say six months.
    Mr. Akin. I guess the way I was thinking of packaging it 
wasn't so much that it was a Plan B, but it is one more step 
forward. And the first step was to create some level of peace 
on the street. But I think the leverage is you say, look, Mr. 
Sunni, we understand this town is 60 percent Sunni and you guys 
will have a lot of influence running the local police, but you 
have got to understand that there is another town over here 
that is 60 percent Shi'a. And maybe one of the parameters is 
that there has to be justice and consistency the way laws are 
administered by local police. Anyway, I appreciate what you are 
saying. I didn't know that other people had been working--I 
wanted to give one last part of a minute. Anybody else want to 
take a shot at why that is a lousy idea or if you like the 
idea?
    General McCaffrey. Let me, if I may, add one thing. I am 
sympathetic--I listened to Senator Biden with great admiration. 
And Dr. O'Hanlon certainly has been thinking about this very 
objectively for several years now. I don't think we have much 
of a vote left. We gave them a constitution. We gave them a 
security force. We are on our way out. The American people have 
had it with this thing. We are not going to keep up $10 billion 
a month. We are not going to redesign the governmental 
architecture of Iraq. They may do it, or they may decide to do 
it through warfare. But I think, to be honest, this discussion 
is outside of the reality of Iraq. I don't think this is going 
to happen. We are not going to direct it.
    General Newbold. My only comment was, Congressman, in the 
summer of 2003, I was approached by a member of the National 
Security Counsel staff for ways to seek stability in the 
country, and I proposed almost precisely what you are 
recommending. I think, at that point, it was important to 
establish the basis of governance from the bottom up and to 
give exaggerated rewards and exaggerated disincentives for 
those that were turbulent or sectarian or et cetera. I agree 
with General McCaffrey that the genie is probably out of the 
bottle, but I wish they had done it in 2003.
    Dr. Snyder. Mrs. Davis wants the last word here.
    Ms. Davis of California. Thank you. That just raises the 
question, the PRTs that we have put out there, we are trying to 
have them model some of this behavior, correct, and hopefully 
within an Iraqi mind-set as opposed to a Western mind-set? But 
that doesn't jive with what you are just saying. Is that effort 
worthwhile? Is it working in the way that we are hoping it 
would?
    Mr. O'Hanlon. There is a certain amount of the effort that, 
you are right, is already happening and we are trying to 
expedite. It is not quite as radical as to say most of the 
budget resources should go to the provinces. We are trying to 
give them more powers. I think it makes sense. From what I saw 
of the PRTs, they are doing a reasonably good job, but it is a 
very fledgling effort in the broader situation. So I think it 
really should be viewed as a plan B, because it would be enough 
of a departure from what is going on right now. The idea of 
giving most of the resources to the provinces would be a big 
change.
    Ms. Davis of California. But it is our mind-set more than--
isn't it?
    General McCaffrey. Let me offer a countervailing view. I 
think that whole notion of the PRT in Afghanistan was 
incredibly sound. A 14th century country, pathetically grateful 
for our intervention, you can get out with a small security 
detachment and stay alive. It has been absolutely marvelous.
    In Iraq, I don't understand what we are doing. We are 
coming out of there, we are not there to rebuild the local 
economy of Diyala Province. We are not there to kid them into 
picking up their own garbage. I do not understand the strategic 
sense behind it. It is hard to live out there with a contract 
security force and a tiny group of Americans. What are we 
thinking of? You know, I think I am probably one out from 
several other people at the table, but I think the PRT is a 
failed effort already.
    Dr. Snyder. Gentlemen, we appreciate you and your being 
patient with us. You did double duty here today. All four of 
you are very well respected, as is General Keane, and we 
appreciate you being here. And Members may have some questions 
for the record, but you have been all through that before.
    But thank you so much. We appreciate you. The committee is 
adjourned.
    [Whereupon, at 4:19 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             July 31, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 31, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T8759.001
    
    [GRAPHIC] [TIFF OMITTED] T8759.002
    
    [GRAPHIC] [TIFF OMITTED] T8759.003
    
    [GRAPHIC] [TIFF OMITTED] T8759.004
    
    [GRAPHIC] [TIFF OMITTED] T8759.005
    
    [GRAPHIC] [TIFF OMITTED] T8759.006
    
    [GRAPHIC] [TIFF OMITTED] T8759.007
    
    [GRAPHIC] [TIFF OMITTED] T8759.008
    
    [GRAPHIC] [TIFF OMITTED] T8759.009
    
    [GRAPHIC] [TIFF OMITTED] T8759.010
    
    [GRAPHIC] [TIFF OMITTED] T8759.011
    
    [GRAPHIC] [TIFF OMITTED] T8759.012
    
    [GRAPHIC] [TIFF OMITTED] T8759.013
    
    [GRAPHIC] [TIFF OMITTED] T8759.014
    
    [GRAPHIC] [TIFF OMITTED] T8759.015
    
    [GRAPHIC] [TIFF OMITTED] T8759.016
    
    [GRAPHIC] [TIFF OMITTED] T8759.017
    
    [GRAPHIC] [TIFF OMITTED] T8759.018
    
    [GRAPHIC] [TIFF OMITTED] T8759.019
    
    [GRAPHIC] [TIFF OMITTED] T8759.020
    
    [GRAPHIC] [TIFF OMITTED] T8759.021
    
    [GRAPHIC] [TIFF OMITTED] T8759.022
    
    [GRAPHIC] [TIFF OMITTED] T8759.023
    
    [GRAPHIC] [TIFF OMITTED] T8759.024
    
    [GRAPHIC] [TIFF OMITTED] T8759.025
    
    [GRAPHIC] [TIFF OMITTED] T8759.026
    
    [GRAPHIC] [TIFF OMITTED] T8759.027
    
    [GRAPHIC] [TIFF OMITTED] T8759.028
    
    [GRAPHIC] [TIFF OMITTED] T8759.029
    
    [GRAPHIC] [TIFF OMITTED] T8759.030
    
    [GRAPHIC] [TIFF OMITTED] T8759.031
    
    [GRAPHIC] [TIFF OMITTED] T8759.032
    
    [GRAPHIC] [TIFF OMITTED] T8759.033
    
    [GRAPHIC] [TIFF OMITTED] T8759.034
    
    [GRAPHIC] [TIFF OMITTED] T8759.035
    
    [GRAPHIC] [TIFF OMITTED] T8759.036
    
    [GRAPHIC] [TIFF OMITTED] T8759.037
    
    [GRAPHIC] [TIFF OMITTED] T8759.038
    
    [GRAPHIC] [TIFF OMITTED] T8759.039
    
    [GRAPHIC] [TIFF OMITTED] T8759.040
    
    [GRAPHIC] [TIFF OMITTED] T8759.041
    
    [GRAPHIC] [TIFF OMITTED] T8759.042
    
    [GRAPHIC] [TIFF OMITTED] T8759.043
    
    [GRAPHIC] [TIFF OMITTED] T8759.044
    
    [GRAPHIC] [TIFF OMITTED] T8759.045
    
    [GRAPHIC] [TIFF OMITTED] T8759.046
    
    [GRAPHIC] [TIFF OMITTED] T8759.047
    
    [GRAPHIC] [TIFF OMITTED] T8759.048
    
    [GRAPHIC] [TIFF OMITTED] T8759.049
    
    [GRAPHIC] [TIFF OMITTED] T8759.050
    
    [GRAPHIC] [TIFF OMITTED] T8759.051
    
    [GRAPHIC] [TIFF OMITTED] T8759.052
    
    [GRAPHIC] [TIFF OMITTED] T8759.053
    
    [GRAPHIC] [TIFF OMITTED] T8759.054
    
    [GRAPHIC] [TIFF OMITTED] T8759.055
    
    [GRAPHIC] [TIFF OMITTED] T8759.056
    
    [GRAPHIC] [TIFF OMITTED] T8759.057
    
    [GRAPHIC] [TIFF OMITTED] T8759.058
    
    [GRAPHIC] [TIFF OMITTED] T8759.059
    
    [GRAPHIC] [TIFF OMITTED] T8759.060
    
    [GRAPHIC] [TIFF OMITTED] T8759.061
    
    [GRAPHIC] [TIFF OMITTED] T8759.062
    
    [GRAPHIC] [TIFF OMITTED] T8759.063
    
    [GRAPHIC] [TIFF OMITTED] T8759.064
    
    [GRAPHIC] [TIFF OMITTED] T8759.065
    
    [GRAPHIC] [TIFF OMITTED] T8759.066
    
    [GRAPHIC] [TIFF OMITTED] T8759.067
    
                                  <all>

</pre></body></html>
